WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-7097

Alree B. Sweat, III City of Las Cruces, New Mexico, et al.
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

. . Digitally signed by Mark D. Standridge
Signature: Mark D. Standridge OT ee es Ono

Date: 3/10/21

(Type or print) Name |Mark D, Standridge

© mr. O Ms. O Mrs. O Miss
Firm Jarmie & Rogers, P.C.
Address 2540 El Paseo Road, Suite D
City & State j|Las Cruces, NM Zip |88001
Phone (575) 288-1453 Email mstandridge@jarmielaw.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Alree B. Sweat, Ill, #39850

ce: Southern New Mexico Correctional Facility
1983 Joe R. Silva Boulevard
Las Cruces, NM 88004-0639
